956

$

No;

IN THE
SUPREME COURT OF THE UNITED STATES

•r

, mm

ii

(Your Name)

PCTT!°vE?

n p

i,‘l

i Vv |
;■

V-

fYitifton JjVM fllroivite RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

ltd
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

iit
(Your Name)

'f
(City, State, Zip Code)

(Phone Number)

PILED
OCT 2 0 2020

'l

f-i
.

!

!

i

f->i
r
}
f
QUESTION(S) PRESENTED

{

-r--2

r

1. When Erickson Living Communities suspended me for nine days to investigate
intentionally false accusations of elderly abuse and found no grounds to support these
allegations; why wasn’t I allowed to return to work and compensated for all unpaid
wages versus termination on June 02, 2017.

2. Vanessa Stollheimer received no disciplinary action for Patient neglect on the Memory
Care Unit that resulted in death.
3.

Jill Tuttle received no disciplinary action concerning a physically assault on April 28,
2017.

4.

Justin Bierber (Memory Care Unit Team Lead) received no disciplinary action upon
witnessing a physical assault and failed to report it.

5. No disciplinary actions were taken against Sandra Schneider when she failed to report
neglect, abuse or inappropriate behavior regarding care of a resident promptly.

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
aU parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
l^j For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A

to

the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE..................................................
REASONS FOR GRANTING THE WRIT.....................................
CONCLUSION...................

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

JURISDICTION
!Xl For cases from federal courts:
The dat^1j.^5h ^ United States Court of Appeals decided my case
I
) - D4 No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: --------------------------------- - and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on___________ . ---------(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______________ (date) on _______________ (date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

r

STATEMENT OF THE CASE

4,

^tk

Hazel Denise Stuart
100 Lost Springs Lane SW
Atlanta, Georgia, 30331
470-774-2090(home)
720-284-1248(mobile)
December 23, 2020

To: The Supreme Court of the United States,
In December of 2016,1 was hired as a CNA/QMAP at Erickson Living Communities
(Windcrest), for the Memory Care Unit on the 4th floor at the Mill Vista Lodge; Highland Ranch,
Colorado. During the new hire orientation, I was informed of the Company’s expectations along
with access to print the Employee Handbook.
In March 2017,1 received My first and only Employee Performance Evaluation from the
Memory Care Unit Manager, Nicole Gates. My overall performance was good, perfect
attendance, amiable team player, and a committed employee who worked consistently 40 hours +
weekly, due to short staff. I was appointed by the Activities Director, Kelsey Ruocco. to
accompany the residents on various Scenic Drive outings. I will escort the ambulatory and non­
ambulatory residents outside for short walking ventures and take pictures during happy
moments. (See Exhibits 2-13).
In March, around 10:25pm, a male resident was left outside on the patio in the dark while
the assigned CNA, Vanessa Stollheimer(Hispanic female) sat on the Eastside on her cell phone
texting, looking at pictures, and refused to remove him from roaming around in the dark. When I
voiced concerns of him being outside in the dark, she continued texting without looking up and
stated, “he’s okay.” The resident was found in the common sunroom area, during shift change
around 10:50 pm on the Westside. After the two staff members heard a sound and turned around
to see where the sound was coming from, they found the resident lying in his blood with blood
on his head. A huge glass vase that sit in the common sunroom area on the floor by the exit door
was broken up. Several days later the evening staff was told that the patient died, and his neck
was broken in several places. The Erickson Living Communities “Compliance Plan” was
disregarded. (See the attached Brain Injury Occurrence Report from Wind Crest). The
report states “Assisted Living Resident-ALR ONLY). The male resident was on the Memory
Care Unit, 4th floor.
On April 28,2017,1 was assaulted by Jill Tuttle (Hispanic female) in the presence of the
assigned Memory Care lead person, Justin Bierber. Afterward, I reported the assault via email to
my Manager and to the Human Resource Manager, Dona Rubo. The Erickson Living
Communities “The Erickson Living Values” was disregarded. Additionally, I experienced
harassment from Jill Tuttle, disparate treatment from Nicole Gates, and I was compelled to work
in a hostile environment. (See Exhibit 1).

>

1

*s

On May 23rd. I experience emotional abuse from Kaycee Galgia (white female), followed
by my refusal to disclose HIPPA information concerning a resident on the Unit. Dameisha White
witnessed and documented the incident in a statement. (See Exhibit 14-15). Upon my return to
work, May 25th, I was summoned to a meeting with the Director of Continuing Care, Adam
Dickson, and Human Resources Manager, Don Rubo. Adam adamantly informed me with a
conviction tone of three reasons for my nine days suspension:
1. I refused to give a resident coffee until she ate her food.
2. I removed a resident saved meal from the oven to eat it, and when I was confronted
by another employee, my response was “I don’t care because I am hungry.”
3. I walked up behind a resident as she was walking down the hall toward her room,
grabbed her by the neck and pushed her down to the ground.
My response to these false allegations were:
1. I haven’t denied a resident food until she drinks her coffee, but I have witness other
co-workers, one specifically, Brianna Rodriguez saying that to different resident.
2. Once the residents are served, the aides are required to dine with the residents (by the
Manager).
3. Lord help me, that never happened.
Nine days later, Adam terminated me over the phone.

*
*

REASONS FOR GRANTING THE PETITION

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

IMA
Date:

iz/

